                                              SINGLE AUDIT
                                              QUALITY CONTROL REVIEW

Office of Inspector General—Office of Audit




                                              QUALITY CONTROL REVIEW:
                                              SINGLE AUDIT OF THE CONSORTIUM
                                              FOR WORKER EDUCATION
                                              FINANCIAL STATEMENTS
                                              FOR THE YEARS ENDED DECEMBER 31, 2004 AND 2003 AND
                                              SUPPLEMENTARY INFORMATION OF FEDERAL AWARDS
                                              PROGRAMS FOR THE YEAR ENDED
                                              DECEMBER 31, 2004




                                                                   Date Issued: December 10, 2008
                                                                   Report Number: 24-09-002-03-001
                                       U.S. Department of Labor – Office of Inspector General




U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC. 20210




December 10, 2008


                        Assistant Inspector General’s Report


Mr. Joseph McDermott
Executive Director
Consortium for Worker Education
275 Seventh Avenue
18th Floor
New York, NY 10001

Dear Mr. McDermott:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor, Office of Inspector General (OIG),
conducted of the following audit performed by Scott Gildea & Company, LLP (the Firm)
under the Federal Single Audit Act and Office of Management and Budget (OMB)
Circular A-133 (A-133):

      Single Audit of the Consortium for Worker Education (CWE) Financial
      Statements for the years ended December 31, 2004 and 2003 and
      Supplementary Information of Federal Awards Programs for the year
      ended December 31, 2004

The objectives of the QCR were to determine whether: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

Our review included the following major programs:

                                          Catalog of Federal Domestic
                Program                   Assistance (CFDA) Number
  Welfare-to-Work                         17.253
  Workforce Investment Act (WIA)          17.260
  Dislocated Workers
  WIA Pilots, Demonstrations, and         17.261
  Research Projects


                                                                                Quality Control Review
                                                                       Consortium for Worker Education
                                                                       Report Number: 24-09-002-03-001
                                        U.S. Department of Labor – Office of Inspector General


We determined that the work performed was not acceptable and did not meet the
requirements of the Single Audit Act and A-133. Specifically, the Firm did not: (1)
include CWE audits for consideration in its 2003 peer review and make an accurate
representation to the peer reviewer; (2) adequately plan and document its review of
internal controls for each major program; (3) perform sufficient work to render an
opinion on each major program; and (4) mention a management letter in the audit
report. Since the audit performed was not acceptable, additional work would be
required in order for the audit to meet the requirements of the Single Audit Act and
A-133. Further, the issues listed above require CWE’s attention to either work with the
auditor on correcting the deficiencies, or procure a new audit for the same time period.

A-133, Subpart D - Federal Agencies and Pass-Through Entities, Section (400)(a)(5),
requires referrals when audit work is substandard or for a pattern of technically deficient
audits. The deficiencies noted necessitate that our office refer this audit to the
Professional Ethics Division of the American Institute of Certified Public Accountants
and the New York, State Education Department, Office of the Professions.

While the Firm disagreed with the findings, CWE and the Firm agreed to work together
to produce an acceptable audit.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Scott Gildea, Partner, Scott Gildea & Company, LLP

    Judith A. Fisher, Director of Division of Policy, Review, and Resolution,
    Employment and Training Administration




                                            2                        Quality Control Review
                                                            Consortium for Worker Education
                                                            Report Number: 24-09-002-03-001
                                       U.S. Department of Labor – Office of Inspector General


                                                                              Enclosure
                               Quality Control Review:
    Single Audit of the Consortium for Worker Education Financial Statements
                For the Years Ended December 31, 2004 and 2003
           and Supplementary Information of Federal Awards Programs
                       for the Year Ended December 31, 2004
                                 (24-09-002-03-001)

Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit for state and
local governments, colleges, universities, and not-for-profit organizations that expend
Federal funds equal to or greater than $300,000 in any fiscal year. The June 27, 2003,
revision to A-133 raised this threshold to $500,000 for fiscal years ending after
December 31, 2003.

On November 9, 2005, the Firm issued a single audit report on the CWE financial
statements, for the years ended December 31, 2004 and 2003, and Supplementary
Information of Federal Awards Programs for the year ended December 31, 2004.

We performed a QCR of the above referenced audit. Our review included the following
major programs:

                                         Catalog of Federal Domestic
                 Program                 Assistance (CFDA) Number
    Welfare-to-Work                      17.253
    Workforce Investment Act (WIA)       17.260
    Dislocated Workers
    WIA Pilots, Demonstrations, and      17.261
    Research Projects

Objectives

Our objectives of the QCR were to determine whether: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.




                                           3                        Quality Control Review
                                                           Consortium for Worker Education
                                                           Report Number: 24-09-002-03-001
                                        U.S. Department of Labor – Office of Inspector General


Results

We determined that the audit work performed was not acceptable and did not meet the
requirements of the Single Audit Act and A-133. Specifically, the Firm did not: (1)
include CWE audits for consideration in its 2003 peer review and make an accurate
representation to the peer reviewer; (2) adequately plan and document its review of
internal controls for each major program; (3) perform sufficient work to render an
opinion on each major program; and (4) mention a management letter in the audit
report. Since the audit performed was not acceptable, additional work would be
required related to the audit we reviewed to meet the requirements of the Single Audit
Act and A-133 and requires CWE’s attention to either work with the auditor on
correcting the deficiencies, or procure a new audit for the same time period.

A-133, Subpart D - Federal Agencies and Pass-Through Entities Responsibilities,
Section (400)(a)(5), cognizant agency for audit responsibilities, requires referrals when
audit work is substandard or for a pattern of technically deficient audits. The
deficiencies noted necessitates that our office refer this audit to the Professional Ethics
Division of the American Institute of Certified Public Accountants for review and possible
action, and the New York, State Education Department, Office of the Professions.

Quality Control

1. The Firm excluded CWE audits from consideration for its 2003 peer review and
   misrepresented its work to the peer reviewer.

The Firm stated that it did not include the CWE audits in a list of reports submitted to the
reviewers for its 2003 peer review of its accounting practice for the year ended
December 31, 2002. The Firm said that it submitted reports for only private companies
to the peer review team. The Federal Audit Clearinghouse website indicates that CWE
was a client of the Firm from 1997 through 2005, and of Scott Gildea and Ivanis LLP, for
2006. The peer review report stated, “Scott Gildea & Company, LLP has represented to
me that the firm performed no services under the Statements on Auditing Standards…”
However, the audit of CWE for the audit they performed during 2002 stated, “We
conducted our audit in accordance with auditing standards generally accepted in the
United States of America…” The reliability of the peer review is questionable because
the review did not represent a reasonable cross section of the assignments performed
by the Firm.

Generally Accepted Government Auditing Standards (GAGAS), Chapter 3, paragraph
3.54, states, in part:

       b. The review team should use one of the following approaches to
       selecting audits and attestation engagements for review: (1) select audits
       and attestation engagements that provide a reasonable cross section of


                                            4                        Quality Control Review
                                                            Consortium for Worker Education
                                                            Report Number: 24-09-002-03-001
                                                 U.S. Department of Labor – Office of Inspector General


        the assignments performed by the reviewed audit organization in
        accordance with GAGAS or (2) select audits and attestation engagements
        that provide a reasonable cross section of the reviewed audit
        organization’s work subject to quality control requirements, including one
        or more assignments performed in accordance with GAGAS.

        c. The peer review should be sufficiently comprehensive to provide a
        reasonable basis for concluding whether the reviewed audit organization’s
        system of quality control was complied with to provide the organization
        with reasonable assurance of conforming with professional standards in
        the conduct of its work. The review team should consider the adequacy
        and results of the reviewed audit organization’s monitoring efforts to
        efficiently plan its peer review procedures.

Planning

2. The Firm did not adequately document the planning and testing of internal
   controls for each major program.

Inadequately Documented Planning

The Firm’s audit working papers did not support that it had established universes for
testing of internal controls and 12 applicable compliance requirements. 1 In the absence
of established universes, the Firm could not demonstrate whether the related samples
were representative and provided sufficient evidence to support its opinion on
compliance.

American Institute of Certified Public Accountants (AICPA), May 2003, AICPA Audit
Guide-Government Auditing Standards and Circular A-133 Audits Audit sampling,
paragraph 6.47 states, in part:

        If the auditor chooses to select audit samples from the entire universe of
        major program transactions, the audit documentation should be presented
        in such a fashion that they clearly indicate that the results of such
        samples, together with other audit evidence, are sufficient to support the
        opinion on each major program's compliance.




1
 Activities Allowable or Unallowable, Allowable Costs/Costs Principles, Cash Management, Eligibility, Equipment
and Real Property Management, Matching Level of Effort, Earmarking, Period of Availability of Federal Funds,
Procurement and Suspension and Debarment, Program Income, Reporting, Subrecipient Monitoring, and Special
Tests and Provisions.


                                                      5                           Quality Control Review
                                                                         Consortium for Worker Education
                                                                         Report Number: 24-09-002-03-001
                                        U.S. Department of Labor – Office of Inspector General


Inadequately Documented Compliance Testing

The Firm’s compliance testing for the programs was not accomplished in accordance
with the recommended testing requirements in the A-133 Compliance Supplement of
March 2004. The Firm stated it performed dual testing of internal controls and
applicable compliance requirements. However, the audit documentation did not include
evidence that the Firm performed testing of internal controls sufficient to (1) support a
low assessed level of control risk for the assertions relevant to each material
compliance requirement for the program, and (2) enable the Firm to reach a conclusion
on the effectiveness of internal controls for preventing or detecting noncompliance
relevant to the material compliance requirements for the major programs.

The Firm stated that its sampling methodology was based on high dollar stratification,
and then judgmentally based upon whatever appeared to be an anomaly. The Firm
further stated that all Federal programs were tested as one and samples were
judgmentally selected. Without supporting documentation in the working papers, the
Firm could not demonstrate whether the related samples were representative or
provided sufficient evidence to support the Firm’s opinion on internal controls and
compliance.

A-133, Subpart E - Auditors, Section 500(c), Scope of audit - Internal control, states, in
part:

       (2) Except as provided in paragraph (c)(3) of this section, the auditor
       shall:

       (i) Plan the testing of internal control over major programs to support a
       low-assessed level of control risk for the assertions relevant to the
       compliance requirements for each major program; and

       (ii) Perform testing of internal control as planned in paragraph (c)(2)(i) of
       this section.

The AICPA Professional Standards AU§350.24 states, in part:

       Sample items should be selected in such a way that the sample can be
       expected to be representative of the population. Therefore, all items in the
       population should have an opportunity to be selected….




                                            6                        Quality Control Review
                                                            Consortium for Worker Education
                                                            Report Number: 24-09-002-03-001
                                        U.S. Department of Labor – Office of Inspector General


Determination and Testing of Major Programs

3. The Firm did not perform sufficient work to render the proper opinion on each
   major program.

Review of audit documentation and discussions with the Firm disclosed that it did not
perform sufficient work to render opinions on the major programs. The Firm made
incorrect determinations regarding the applicability of requirements and did not perform
adequate testing.

Incorrect Determinations

Although the Firm correctly identified all of the Compliance Supplement requirements, it
made incorrect determinations regarding the applicability of two requirements. The Firm
incorrectly determined that the Period of Availability of Federal Funds was not
applicable for the three major programs. Conversely, the Firm incorrectly determined
that the Davis Bacon Act was applicable. Since the Davis Bacon Act was not applicable
to the programs audited, it could not possibly have been tested. These instances
demonstrate the Firm’s lack of knowledge of A-133 requirements.

The Compliance Supplement Matrix of March 2004 showed that the Period of
Availability of Federal Funds should have been determined to be applicable to two of
the major programs; and clearly labeled the Davis Bacon Act as not applicable to either
program. The third major program was not listed on the Compliance Supplement
Matrix.

The Firm told us it used its own interpretation of the compliance requirements and that it
had not seen the Compliance Supplement Matrix that delineates the compliance
requirements for CFDAs 17.253 and 17.260. Since the Firm determined the compliance
requirement Period of Availability was not applicable to the three major programs, it
failed to test compliance and, as a result, did not meet the requirements of A-133,
Subpart E - Auditors, Section 500 (d) Scope of audit -Compliance, which states, in part:

      …(3) For the compliance requirements related to Federal programs
      contained in the compliance supplement, an audit of these compliance
      requirements will meet the requirements of this part…(4) The compliance
      testing shall include tests of transactions and such other auditing
      procedures necessary to provide the auditor sufficient evidence to support
      an opinion on compliance.

Inadequate Testing

The nature and extent of audit testing was inadequate to meet the audit objectives as
identified in the Compliance Supplement for all material compliance requirements.


                                            7                        Quality Control Review
                                                            Consortium for Worker Education
                                                            Report Number: 24-09-002-03-001
                                                U.S. Department of Labor – Office of Inspector General


The Firm did not adequately document: the number of transactions tested for each
compliance requirement; the attributes tested; and the outcomes of the tests. Of the 12
applicable compliance requirements, we determined that at least four 2 were not
adequately tested and a fifth requirement was not tested because the Firm incorrectly
determined it was not applicable 3 .

A-133 Subpart E - Auditors, Section 500 (d), Scope of audit – Compliance, states, in
part: “. . . (4) The compliance testing shall include tests of transactions and such other
auditing procedures necessary to provide the auditor sufficient evidence to support an
opinion on compliance.”

Our conclusion that the Firm did not perform sufficient audit work is further evidenced in
an OIG conducted performance audit 4 of a CWE earmark grant that covered the same
period as the Firm’s audits, April 1, 2002 through December 31, 2004. The CWE
earmark grant amount was $32.4 million, and we tested 85 percent of the total costs.
The audit disclosed that 33 percent of recorded expenditures for the grant were not
allowable or allocable. Further, CWE did not maintain a system to account for indirect
costs in the general ledger. It directly charged costs to the grant that were also included
in the indirect cost pool, which resulted in double charging. CWE was also unable to
provide adequate documentation to support individual line items reported on the
Grantee’s Detailed Statement of Costs in the Financial Status Report.

Further, when OIG auditors attempted to review the Firm’s audit documentation
pertaining to the audits for the years ended December 31, 2002 and 2003, the
Firm was unable to provide suitable documentation, and we concluded that the
single audits were unreliable. The Firm said that the audit documentation for
these reports were not reviewable. Only the first two pages of the 2003 Single
Audit Guide were completed, and no single audit documentation was provided for
the 2002 audit. The Firm said that it misplaced the documentation while in
storage.

Reporting

4. The Firm did not mention a management letter in the audit report. 5

The Firm prepared a management letter that included five deficiencies, including the
fact that two key CWE executives were the only people required to authorize, approve
and report payments on a program, which created what appeared to be a
2
  Cash management, Matching, Program income, and Subrecipient monitoring
3
  Period of Availability of Federal Funds
4
  Audit report number 02-08-203-03-390, Consortium For Worker Education Earmark Grant, dated February 29,
  2008
5
  CWE Financial Statements for the Years Ended December 31, 2004 and 2003 and Supplementary Information of
  Federal Awards Programs for the Year Ended December 31, 2004, dated November 9, 2005


                                                    8                           Quality Control Review
                                                                       Consortium for Worker Education
                                                                       Report Number: 24-09-002-03-001
                                                   U.S. Department of Labor – Office of Inspector General


misappropriation of funds by these employees and was recorded in the financial
statements as costs of the program. CWE included a note in the financial statements
disclosing the $2 million misappropriation of funds, but the Firm did not refer to the
management letter in the single audit report, as required by GAGAS. Further, the Firm
could not provide a signed copy of the letter. As a result, we could not determine if the
management letter was issued to the auditee.

GAGAS, Chapter 5, Reporting Standards for Financial Audits, paragraph 5.20, states:

        When auditors detect immaterial violations of provisions of contracts or
        grant agreements or abuse, they should communicate those findings in a
        management letter to officials of the audited entity unless the findings are
        clearly inconsequential considering both qualitative and quantitative
        factors. Auditors should refer to that management letter in their audit
        report on compliance. Auditors should use their professional judgment in
        determining whether and how to communicate to officials of the audited
        entity fraud, illegal acts, violations of provisions of contracts or grant
        agreements, or abuse that is clearly inconsequential. Auditors should
        include in their audit documentation evidence of all communications to
        officials of the audited entity about fraud, illegal acts, violations of
        provisions of contracts or grant agreements, and abuse

Recommendation

    1. We recommend CWE work with the auditor on correcting the deficiencies, or
       alternately procure a new audit for the same time period and reimburse any
       Federal funds that were used to procure the Scott Gildea & Company, LLP audit,
       in accordance with A-133, Subpart B - Audits, Section 225.

CWE’s Response

In response to the recommendation, CWE stated it met all of its responsibilities and
knew of no deficiencies in the audit methodologies, but that it would take all necessary
steps within its control to ensure continued compliance with A-133. In a subsequent
meeting between the OIG, the Firm, and CWE’s attorney on November 3, 2008, the
Firm and CWE agreed to produce an acceptable audit. CWE confirmed this in a
November 12, 2008, letter. See Appendix D for CWE’s responses to the report.

Firm’s Response

In response to the recommendation, the Firm stated that none of the findings or
comments have changed from the original draft report 6 . The Firm considered the report

6 A draft report was initially issued on June 6, 2006, and then updated and reissued on August 28, 2008.

                                                        9                            Quality Control Review
                                                                            Consortium for Worker Education
                                                                            Report Number: 24-09-002-03-001
                                        U.S. Department of Labor – Office of Inspector General


to be in error both factually and in its conclusions regarding the Firm’s adherence to
auditing standards. The Firm provided specific responses to the findings and
encouraged the OIG to revisit the matter, taking its responses into consideration.

At a meeting with the OIG, the Firm, and CWE’s attorney on November 3, 2008, the
Firm and CWE agreed to produce an acceptable audit. The Firm confirmed this in a
November 11, 2008, letter. See Appendix E for the Firm’s responses to the report.

OIG’s Conclusion

Based on CWE’s response, we consider the recommendation resolved. We will
consider it closed after an acceptable audit is completed.

On November 7, 2008, the Firm informed the OIG that it had retrieved its audit
documentation for the CWE 2004 audit from storage and that the documentation was
approximately double the amount originally provided to the OIG when it performed the
QCR in 2006. However, when the OIG requested to review the additional
documentation the Firm denied the request. Because the Firm did not allow us the
opportunity to review the additional audit documentation it claimed to have found, our
findings remain unchanged.




                                            10                        Quality Control Review
                                                            Consortium for Worker Education
                                                            Report Number: 24-09-002-03-001
             U.S. Department of Labor – Office of Inspector General
                                                       Draft Report




Appendices




                 11                        Quality Control Review
                                 Consortium for Worker Education
                                 Report Number: 24-09-002-03-001
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              12                        Quality Control Review
                              Consortium for Worker Education
                              Report Number: 24-09-002-03-001
                                        U.S. Department of Labor – Office of Inspector General


                                                                              APPENDIX A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving Federal financial assistance. The
single audit is the primary mechanism used by Federal agencies to ensure accountability
for Federal awards. Audits performed under the Single audit Act are intended to satisfy all
Federal agencies providing assistance to the entity. The act was amended in 1996 by
Public Law 104-156, raising the threshold for Single audit to $300,000 in Federal
assistance. The June 27, 2003, revision to A-133 raised this threshold to $500,000 for
fiscal years ending after December 31, 2003.

QCRs are performed to provide evidence of the reliability of single audits to the auditors
of Federal agency financial statements, such as those required by the Chief Financial
Officers Act, those responsible for the programs, and others. We performed a QCR of
the Single Audit of CWE Financial Statements for the years ended December 31, 2004,
and 2003, and Supplementary Information of Federal Awards Programs for the year
ended December 31, 2004, completed by Scott Gildea & Company, LLP.




                                            13                        Quality Control Review
                                                            Consortium for Worker Education
                                                            Report Number: 24-09-002-03-001
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              14                        Quality Control Review
                              Consortium for Worker Education
                              Report Number: 24-09-002-03-001
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objectives, Scope, Methodology and Criteria

Objectives

Our objectives were to determine whether:

   1. the audit was conducted in accordance with applicable standards and met the
      single audit requirements,

   2. any follow-up work is needed, and

   3. there are any issues that may require management’s attention.

Scope

We performed a QCR of the single audit of CWE Financial Statements for the years
ended December 31, 2004, and 2003, and Supplementary Information of Federal
Awards Programs for the year ended December 31, 2004, at the offices of Scott Gildea
& Company, LLP, located at 500 Fifth Avenue, Suite 810, New York, NY 10110, from
February 27, 2006 to March 3, 2006.

Our review included the following major programs:


                      Program                          CFDA Number
        Welfare-to-Work                          17.253
        Workforce Investment Act (WIA)           17.260
        Dislocated Workers
        WIA Pilots, Demonstrations, and          17.261
        Research Projects

Methodology

Using the Department of Labor-OIG’s National Audit and Evaluations Office Uniform
QCR Guide for A-133 Audits, we reviewed audit documentation and held discussions
with the Firm’s partner and staff to accomplish the required steps. The Guide was
developed to test for compliance with GAGAS general and fieldwork standards and
A-133 requirements. Specifically, we reviewed:
    • Competence
    • Independence
    • Professional Judgment
    • Quality Control


                                            15                      Quality Control Review
                                                          Consortium for Worker Education
                                                          Report Number: 24-09-002-03-001
                                      U.S. Department of Labor – Office of Inspector General


   •   Planning and Supervision
   •   Management Representations
   •   Litigation, Claims and Assessments
   •   Possible Fraud or Illegal Acts
   •   Risk Evaluation
   •   Determination of Major Programs
   •   Schedule of Expenditures of Federal Awards
   •   Audit Follow-up
   •   Reporting
   •   Internal Control Over Major Programs
   •   Data Collection Form

Criteria

AICPA May 2003 AICPA Audit Guide-Government Auditing Standards

AICPA Auditing Standards

GAGAS 2003 Revision

Guidance on GAGAS Requirements for Continuing Professional Education

Single Audit Act of 1984

Single Audit Act Amendments of 1996

OMB Circular A-133




                                          16                        Quality Control Review
                                                          Consortium for Worker Education
                                                          Report Number: 24-09-002-03-001
                                    U.S. Department of Labor – Office of Inspector General


                                                                            Appendix C
Acronyms and Abbreviations


  A-133    Office of Management and Budget Circular A-133

  AICPA    American Institute of Certified Public Accountants

  CFDA     Catalog of Federal Domestic Assistance

  CWE      Consortium for Worker Education

  Firm     Scott Gildea & Company, LLP

  GAGAS Generally Accepted Government Auditing Standards

  OIG      Office of the Inspector General

  QCR      Quality Control Review

  WIA      Workforce Investment Act

  OMB      Office of Management and Budget




                                        17                        Quality Control Review
                                                        Consortium for Worker Education
                                                        Report Number: 24-09-002-03-001
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              18                        Quality Control Review
                              Consortium for Worker Education
                              Report Number: 24-09-002-03-001
                                  U.S. Department of Labor – Office of Inspector General


                                                                          Appendix D

Consortium for Worker Education Responses to Draft Report




                                      19                        Quality Control Review
                                                      Consortium for Worker Education
                                                      Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    20                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
                                 U.S. Department of Labor – Office of Inspector General


                                                                         Appendix E

Independent Public Accountant Comments on the Draft Report




                                     21                        Quality Control Review
                                                     Consortium for Worker Education
                                                     Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    22                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    23                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    24                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    25                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    26                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    27                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    28                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    29                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    30                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
U.S. Department of Labor – Office of Inspector General




    31                        Quality Control Review
                    Consortium for Worker Education
                    Report Number: 24-09-002-03-001
